                            CLOSEOUT FOR M-93070036




misappropriated from the other scientist's graduate student. The reviewer said that he thought
the subject's proposal contained the alleged misappropriated idea.

       OIG contacted the other scientist who said the co-PI on the subject's proposal could
only have learned about the idea from the subject. Consequently, OIG did not consider the

discuss his idea at

someone at the workshop might misappropriate the idea. Consequently, he contacted the
subject, who was invited to attend the workshop, and requested that he assist them in
protecting the idea. The other scientist explained that they shared the idea with the subject
before the workshop because the subject was an expert in the student's area of study and
because he agreed to assist them in protecting it at the workshop.

       About two weeks after the workshop, the other scientist said that the subject informed
him of his plans to submit an NSF proposal. The brief oral description of the NSF proposal
provided by the subject made the other scientist think it contained the idea. The other scientist
wrote to the subject to express his concern about the apparent similarities between the idea
and the NSF proposal. He requested the subject not submit the proposal. The other scientist
said the subject insisted that the proposal did not contain the student's idea and that the other
scientist and the student's thesis committee should read the proposal and judge the matter
before asking him not to submit it. The other scientist explained, however, that he and the
committee decided not to read the proposal because the student had still not developed the
idea thoroughly. The othef scientist said the subject argued that they had no right to make this
demand without at least reading the proposal. The other scientist told OIG that, although he
agreed with the subject in principle, he was doubtful that reading the proposal would change
his mind.


  -



                                      Page 1 of 2
                            CLOSEOUT FOR M-93070036

        The other scientist explained that, subsequently, several experts, who knew about the
idea, read the subject's NSF proposal. One expert concluded that "the overlap was complete
within the range of a Ph.D. program." Other experts determined that the approach presented
in the proposal was "unsophisticated," and no further action by the other scientist to stop the
subject from submitting the proposal was necessary. In contrast, OIG determined that the
subject's NSF proposal was detailed and contained specifics about how and what was to be
accomplished.

       OIG asked the other scientist and the student to provide information documenting the
development of the student's idea. They provided copies of the student's notes made before,
during, and after the workshop, the schedule and minutes of the workshop, a two-page
overview of the idea submitted by the student to the thesis committee a month after the
workshop, and other documents. The documents revealed that the student's thesis idea was
very general with no uniquely identifiable attributes. For example, the student provided notes
he had taken when he visited the subject to discuss his idea before the workshop. These notes
consisted mostly of reminders that the student read and expand on information published by
the subject. The official minutes of the workshop included information about a paper the
subject presented that was very similar to the student's idea, but the workshop minutes
contained no information about a paper or a discussion by the student about his idea. Finally,
OIG noted that the two-page overview of the idea submitted by the student to the thesis
committee a month after the workshop was still very general with no clearly identifiable
unique features.

       The evidence showed that, at the time of the workshop, the student's' idea was still
evolving, a process that, according to the record, continued for at least a month after the
workshop. OIG determined that there was no evidence that the subject's proposal contained
an idea that was uniquely identifiable as the student's.

       We concluded that the subject's prior publications, workshop presentation and detailed
NSF proposal submission suggested that the subject independently developed the ideas
expressed in the proposal and that, although there may have been some overlap between the
student's current interest and the subject's prior interests, the subject had not taken the
student's ideas. OIG concluded that there was no substance to the allegation that the subject
misappropriated the student's idea and used it in his proposal.

       This inquiry was closed and no further action will be taken.

cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                     Page 2 of 2
